IN THE SUPREME COURT OF THE UNITED STATES
Case No. 20-5828

RODERICK CARTER

Petitioner,

CPC LOGISTICS, INC., CPC MEDICAL PRODUCTS, LLC, AND HOSPIRA
FLEET SERVICES, LLC

Respondents.

CERTIFICATE OF COMPLIANCE
COMES NOW, Michael F. Harris, the undersigned attorney for Respondents

CPC Logistics, Inc. and CPC Medical Products, LLC, and hereby certifies, pursuant
to Supreme Court Rule 33, that the Respondents’ Brief:
1. Complies with the limitations contained in Supreme Court Rule 33.
2. Contains 3434 words, including the footnotes, but excluding the cover page,
Questions Presented, List of Parties, Table of Contents, Table of
Authorities, and Signature Block, according to the word count toll contained

in Microsoft Word software with which it was prepared.
Respectfully submitted,

HARRIS DOWELL FISHER & YOUNG, L.C.

 

Michael F. Harris, S.C. Bar # 313700
15400 S. Outer 40, Suite 202
Chesterfield, MO 63017

Phone: (636) 532-0300

Facsimile: (636) 532-0246
mharris@harrisdowell.com

Attorney for Respondents CPC Logistics, Inc.
and CPC Medical Products, LLC
